Department of Health and
     Human Services

     OFFICE OF
INSPECTOR GENERAL



Medicare Administrative Appeals
 The Potential Impact of BIPA




                JANET REHNQUIST
                Inspector General

                  JANUARY 2002
                  OEI-04-01-00290
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG) mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:


       REGION                                       HEADQUARTERS

       Janet Miller, Lead Analyst                   Tricia Davis, Program Specialist

       Joe Townsel, Team Leader                     Deborah Holmes, Program Analyst





To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7729. Reports
are also available on the World Wide Web at our home page address:

                                       http://oig.hhs.gov
                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5




THE POTENTIAL IMPACT OF BIPA

         Time Limits for Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Flow of Paper Records . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Increase in Number of Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


         Increase in Cost of Appeals System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


         Program Integrity Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         Quality of Record . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


         Transition to New Appeals System . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


         Effect on Beneficiaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


         Carrier Appeals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


         The Qualified Independent Contractor . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


         SSA ALJ Hearings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         Medicare Appeals Council . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         U.S. District Courts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                                   EXECUTIVE SUMMARY

PURPOSE OF STUDY
         To review the current Medicare administrative appeals system and assess the potential
         impact of the recently enacted Medicare, Medicaid and State Children’s Health Insurance
         Program Benefits Improvement and Protection Act of 2000 on the appeals process.

BACKGROUND
         The recently enacted Medicare, Medicaid and SCHIP Benefit Improvement and Protection
         Act of 2000 (BIPA) significantly revises the Medicare appeals process. Section 521 of
         BIPA, which takes effect October 1, 2002, establishes a uniform process for handling all
         Medicare Part A and Part B appeals and specifies time frames for filing appeals and
         rendering decisions.

         This review focuses on Medicare Part B appeals. We conducted the study in March
         through May of 2001. During that time, we reviewed the statute and collected appeals
         related data. We also questioned Administrative Law Judges (ALJ), the Medicare
         Appeals Council at the Departmental Appeals Board, Part B carriers, and numerous other
         experts on the appeals process.

POTENTIAL PROBLEMS
         <	        The current Medicare appeals system is backlogged, overwhelmed, and untimely,
                   and the problems could be exacerbated by BIPA provisions.

         <	        The system, designed for beneficiaries, is now used primarily by health care
                   providers. The new system may be more difficult for beneficiaries to use and
                   easier for providers.

         <	        Appellants could lose their right to a hearing early in the appeals process with the
                   elimination of the carrier hearing.

         <	        Elevations of appeals not adjudicated in mandated time frames could further
                   overload the system and provide opportunities for “gaming.”

         <	        The elevation of cases would increase the overall cost to the appeals system
                   because administrative costs increase at higher levels of appeals.

         <	        The significant reduction in the minimum amounts in controversy required for a
                   hearing will likely render the threshold irrelevant.

         <	        The cost of the creation of the Qualified Independent Contractors is difficult to
                   estimate because of the myriad of details to be resolved before Qualified
                   Independent Contractor implementation can occur. It is likely to be significant.

                                                     1
Medicare Administrative Appeals:                                                       OEI-04-01-00290
The Potential Impact of BIPA
         <	        The rigid time frames could compromise program integrity efforts and fraud
                   investigations.

         <	        Social Security Administration (SSA) ALJs are currently in an administrative
                   structure that does not allow them to focus on Medicare work. The new system
                   will likely increase their workload.

         <	        The Medicare Appeals Council has only two judges and a small support staff, and
                   is not prepared to handle a large influx in cases.

         <	        The impact of BIPA on the U.S. District Courts is unknown. They are not
                   prepared at this time for the implementation of BIPA.

RECOMMENDATIONS
         <         Delay implementation of Section 521 of BIPA.

                   Implement only after solving systemic problems addressed in this report and our
                   prior report on the ALJ process. The Department should seek legislation to revise
                   the effective date of the statute.

         <         Establish an administrative appeals process that is dedicated to Medicare.

                   An administrative appeals system within the Department of Health and Human
                   Services may be structured in a variety of ways. Regardless of structure, however,
                   consideration should be given to factors such as the number of levels of appeal,
                   formats, timeliness standards, and qualifications of reviewers.

         <         Ensure adequate resources for each level of the appeals process.

                   Implementation of process changes should not occur until costs of revisions can be
                   carefully estimated and provided for.

         <	
         <         Modify the time frames mandated by BIPA--Provide adequate time for fair
                   and effective processing, but ensure timely and efficient resolution of appeals.

                   Time frames which can be met with a reasonable good faith effort by all parties to
                   the appeals process should be established, and phased in over a reasonable time
                   period.

         <         Provide opportunity for CMS representation at higher levels of review.

                   CMS representation is needed to assure fair and impartial hearings and to ensure
                   that the interests of the Medicare program itself are effectively presented and
                   considered.




                                                    2

Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
         <         Develop thorough, parallel training for reviewers at all levels of appeal.

                   Both Medicare contractors and reviewers at all levels lack common knowledge,
                   understanding, and information about the appeals system and results.

         <
         <	        Develop and require all reviewers of Medicare claims to apply the same
                   standards.

                   Currently, the ALJs are bound only by law and regulations, while contractors are
                   also bound by Local Medical Review Policy and contractor manuals. This
                   contributes to a high reversal rate by ALJs. Therefore, greater standardization
                   would be useful. However, we recognize that ALJ decision may continue to be
                   based on evidence that was not presented to - or not fully considered by - a
                   contractor.

         <         Develop regulations or detailed specifications for conducting appeals.

                   Currently, ALJs lack the necessary guidance to conduct Medicare appeals. Instead,
                   they use SSA disability appeal regulations to adjudicate Medicare appeals.

         <
         <	        Create formal communication and information networks that span the entire
                   appeals system.

                   The discrete levels of appeal inhibit communication and prevent the system from
                   becoming fully integrated.

         <         Modernize appeals processing mechanisms.

                   A modernization effort could lead to reductions in both case preparation time and
                   layers of appeal review and adjudication. The manual file systems need to be
                   enhanced with electronic features.

DEPARTMENT COMMENTS

         The Office of the Secretary presented a consolidated response representing the views of
         various components within the Department of Health and Human Services. Generally, the
         Department agreed with our conclusions and recommendations. Specifically, the
         Department agreed that a complete restructuring is needed to resolve serious
         shortcomings of the appeals system before Section 521 of the Benefits Improvement and
         Protection Act becomes effective.

         Further, the Department’s response to our report noted that many of our
         recommendations were also applicable to Section 522 of the Benefits Improvement and
         Protection Act, although we did not include an analysis of that Section in our study.
         Accordingly, the Department suggested that Section 522 should also be delayed until after
         a comprehensive resolution of systemic problems in the Medicare administrative appeals
         system.

                                                    3
Medicare Administrative Appeals:                                                    OEI-04-01-00290
The Potential Impact of BIPA
         The Department highlighted three principles that should serve to guide its efforts in
         reforming the system. They are:

                   --        build on the appeals model included in the Benefits Improvement and
                             Protection Act;

                   --        achieve a more timely, efficient, and less costly administrative review
                             process; and

                   --        achieve more consistent case decisions.

         The full text of Department of Health and Human Services comments on our report is
         shown in the appendix.




                                                       4

Medicare Administrative Appeals:                                                         OEI-04-01-00290
The Potential Impact of BIPA
                                       INTRODUCTION

PURPOSE OF STUDY
         To review the current Medicare Part B administrative appeals process and assess the
         potential impact of the recently enacted Medicare, Medicaid and SCHIP Benefits
         Improvement and Protection Act of 2000 on this process.


BACKGROUND
Medicare Part B Appeal Rights

         Medicare beneficiaries have a statutory right to appeal their denied Part B claims either on
         the basis of coverage or payment under Section 1869 of the Social Security Act. Section
         1879(d) extends these beneficiaries’ appeals rights, in certain cases, to providers and
         suppliers who accept assignment. The rights conferred by Section 1869 are important
         guarantees to beneficiaries whose Medicare claims are denied.

         Among the features that make the appeals process “user friendly” for beneficiaries are:

         <	        An appeal can be filed for the denial of any claim, regardless of the amount of
                   money in dispute at the first level of appeal, and at a low dollar threshold for the
                   amount in controversy at subsequent levels;

         <	        Non-adversarial proceedings at each appeal level where the government, directly,
                   or through its agents, is not a party to the appeal;

         <	        “De novo” proceedings where cases are decided anew at the contractor and ALJ
                   levels instead of reviewed on the basis of whether the decision at the lower level
                   was proper, as in a traditional appeals process used by the courts;

         <         The right to introduce new information at each level of appeal;

         <	        The option to select the type of Medicare carrier hearing (e.g., by telephone or in
                   person) based on the personal preferences of the appellant; and,

         <	        The ability to combine claims to meet the thresholds for the amounts in
                   controversy.

Administrative Appeals Process

         If a carrier denies payment for a claim, a provider or a beneficiary may appeal the denial.
         Appellants must file their appeal initially with the Medicare carrier. If dissatisfied with the
         carrier appeal decision, the appellant may appeal to an Administrative Law Judge (ALJ).
         ALJs are employed by the Social Security Administration (SSA), but they adjudicate
         Medicare appeals under a Memorandum of Understanding between SSA and the U.S.
         Department of Health and Human Services. After the ALJ hearing, cases may
                                                     5
Medicare Administrative Appeals:                                                        OEI-04-01-00290
The Potential Impact of BIPA
         be appealed to the Medicare Appeals Council (MAC) located within the Departmental
         Appeals Board (DAB) of the Department of Health and Human Services, the final level of
         administrative appeal. Cases may then be appealed to the U.S. District Courts following a
         MAC review. In each case, the lower level of appeal must be exhausted before the appeal
         can be elevated to the next level.

Administrative Appeals Volume

         Medicare Part B claims volume grew over 11 percent between Fiscal Years 1996 and
         2000, while the number of reviews stayed about the same. However, the number of
         carrier hearings conducted increased 50 percent, from 70,716 to 106,480, during the same
         time.

         The following table illustrates the volume of appeals and the current pending caseload.

                              One Quarter Part B Appeals Workload — 2001

                                              New Requests                    Pending
              Reviews                            965,230                      453,705
              Carrier Hearings                    24,507                       25,654
              ALJ                                 12,257                       31,223
              MAC                                   2289                       10,333
                                                          nd
                                   *All figures are from 2 Quarter FY 2001.


Previous Office of Inspector General Work

         A report released in September 1999 by the Office of Inspector General (OIG)1 examined
         the ALJ appeals level because of numerous reports of extensive problems in and related to
         that area. The report established that the number of Part B ALJ hearings increased a
         dramatic 99 percent from 1996 to 1998. It also confirmed that ALJs reversed a
         considerable percentage of cases that reached them. For example, 78 percent of durable
         medical equipment appeals were reversed by ALJs in 1997. An important reason for the
         reversals was that ALJs are not bound by the same standards as carrier hearing officers.
         More specifically, carrier hearing officers are bound by Local Medical Review Policy and
         contractor manuals, while the ALJs are bound only by statute, regulations and National
         Coverage Determinations.

         Additionally, the earlier study found structural problems in the appeals process that
         weakened the system. These included:

         <	         Contractors and ALJs use different criteria in ruling on coverage and payment
                    issues;


         1
          Medicare Administrative Appeals: ALJ Hearings, OEI-04-97-00160
                                                      6
Medicare Administrative Appeals:                                                        OEI-04-01-00290
The Potential Impact of BIPA
         <         Lack of precedent stature for Medicare Appeals Council rulings on ALJ appeals;

         <	        Non-adversarial ALJ hearings, precluding Medicare the opportunity to defend its
                   payment decisions; and

         <	        Lack of common understanding or communication throughout the administrative
                   appeals process.

         There was also evidence of positive changes in the appeals process. The report identified
         a group of SSA ALJs who conduct the most complex and highest dollar value Part B
         cases. It was their work, in part, that supported our conclusion that a permanent cadre of
         judges hearing only Medicare cases would significantly improve the appeals system.

         The OIG made several recommendations to HCFA (now Centers for Medicare &
         Medicaid Services -- CMS) intended to correct the structural problems of the
         administrative appeals system which were related to the development and establishment of
         a dedicated ALJ corps; dual administrative appeals processes for providers and
         beneficiaries; adversarial hearings for provider appeals; parallel training for Medicare
         contractors and ALJs; regulations for conducting Medicare ALJ Appeals; a case
         precedent system for Medicare Appeals Council rulings; and formal communication and
         information networks.

         We also recommended requiring Medicare contractors and ALJs to apply the same
         standards. To date, none of these recommendations has been implemented.


SCOPE AND METHODOLOGY
         This report focuses on the Part B Appeals Process. We focused on Medicare Part B due
         to its size and complexity. For Fiscal Year 2000, Medicare Part B first level appeals
         constituted over 90 percent of all first level appeals.

         This study was conducted March through May of 2001. The study utilized several
         research methods:

         <         Literature Review

         <         Data Collection
                   - Collected special data runs and summary data from HCFA (now CMS).
                   - Obtained special data runs from SSA’s Office of Hearings and Appeals and the
                     DAB.

         <         Surveys
                   - Surveyed all 30 Part B ALJ cadre judges. 	Eighteen survey instruments were
                     returned for a response rate of 60 percent.
                   - Surveyed all 24 Medicare Part B Carriers and Durable Medical Equipment
                     Regional Carriers. Fifteen survey instruments were returned for a response rate
                    of 63 percent.


                                                    7

Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
         <	        In-Person and Telephone Interviews
                   DAB judges
                   OHA officials
                   CMS officials
                   Carrier hearing officers and appeals managers
                   Staff from the Center for Health Dispute Resolution
                   Staff from the Administrative Office of U. S. Courts

         <         Focus Group
                   Conducted a focus group with five Part B ALJ Cadre Judges
                                  _____    ____      ____    _____

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




                                                    8

Medicare Administrative Appeals:                                                OEI-04-01-00290
The Potential Impact of BIPA
                       SUMMARY OF BIPA PROVISIONS

         The recently enacted Medicare, Medicaid and SCHIP Benefit Improvement and Protection
         Act of 2000 (BIPA) significantly revises the Medicare appeals process. Section 521 of
         BIPA, which takes effect October 1, 2002, establishes a uniform process for the handling
         of all Medicare Part A and Part B appeals and specifies time frames for the filing of
         appeals and rendering of decisions.

         BIPA mandates several structural and procedural changes to the administrative appeals
         process which:

         <	        Reduce time to request first level of contractor appeal from 180 days to 120 days
                   in Part B;

         <         Reduce time to conduct first level of contractor appeal from 45 days to 30 days;

         <	        Reduce time to conduct second level of contractor appeal from 120 days to 30
                   days;

         <	        Replace second level contractor appeal (contractor hearing) with a reconsideration
                   by a new appeals entity, the Qualified Independent Contractor (QIC);

         <	        Reduce amount in controversy required at all levels of appeal. Eliminates amount
                   required for contractor levels of appeal. Reduces amount required from $500 to
                   $100 at the ALJ and MAC levels of appeal;

         <	        Impose 90 day time limits to conduct ALJ and MAC appeals. At present, there are
                   no time limits at these levels;

         <         Impose “de novo” review and possibly hearings at the MAC level of appeal; and

         <         Impose “de novo” review at the Federal court level.

         We will discuss each of these provisions in greater detail as we consider their potential
         implications in the sections below. The figure on the next page illustrates the flow of the
         current appeals process and the process stipulated under BIPA.




                                                    9

Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
                   Current and New Administrative Appeals Systems


              CURRENT SYSTEM                                                         NEW SYSTEM



                    CARRIER
                     CARRIER                                                        CARRIER
                                                                                    CARRIER INITIAL
                                                                                             INITIAL
                     INITIAL
                     INITIAL                                                        DETERMINATION
                                                                                    DETERMINATION
                 DETERMINATION
                 DETERMINATION                                                          45
                                                                                        45 days
                                                                                           days
                      45
                      45 days
                         days

                      180 days                                                            120 days

                                                                                       CARRIER
                 CARRIER REVIEW
                         45 days
                                                                                   REDETERMINATION
                                                                                            30 days


                       180 days                                                           180 days

                CARRIER HEARING                                                           QIC
                                                                                    RECONSIDERATION
                        120 days                                                            30 days



                       60 days                                                             60 days


                       ALJ
                       ALJ                                                                 ALJ
                                                                                           ALJ
                     HEARING
                     HEARING                                                             HEARING
                                                                                         HEARING
                     No
                     No time
                         time limit
                               limit                                                        90
                                                                                            90 days
                                                                                               days



                        60 days                                                             60 days

                     MEDICARE
                     MEDICARE                                                            MEDICARE
                                                                                         MEDICARE
                      APPEALS
                      APPEALS                                                             APPEALS
                                                                                          APPEALS
                     COUNCIL
                      COUNCIL                                                            COUNCIL
                                                                                          COUNCIL
                      No
                      No time
                          time limit
                                limit                                                       90
                                                                                            90 days
                                                                                               days




                                   *Time in boxes represents time allowed to complete appeal.
                             **Time between boxes represents time allowed to file for appeal.




                                                            10

Medicare Administrative Appeals:                                                                 OEI-04-01-00290
The Potential Impact of BIPA
                      THE POTENTIAL IMPACT OF BIPA

         The changes mandated by BIPA will create significant implementation challenges and will
         require detailed advance planning and careful budgeting. BIPA will impose requirements
         that cannot be accommodated without significant changes in the structure of and
         resources for the current system. Because the present appeals process continues to suffer
         from serious structural problems, some of BIPA’s mandates are likely to exacerbate
         existing problems, and create unintended consequences. These potential problems are
         described below.

TIME LIMITS FOR APPEALS

         BIPA mandates new and shorter time limits at all Part B levels of appeal. For most levels
         of appeal, these time limits are dramatically shorter than what is currently required. In
         fact, the ALJ and Medicare Appeals Council levels currently have no time limit for
         conducting appeals. BIPA’s time limits for these levels are significantly less than the time
         ALJs and the MAC presently require to conduct an appeal.

         The following table illustrates the time limits BIPA mandates for appeals and compares
         them to what is currently required and what is currently achieved.

                                   Time Limits for Completion of Appeals

                                   BIPA        Current Standard                Current Actual
 Redetermination/                  30 days     45 days                         45 days
 Review                                        (95% within this time)          (89% within this time)

 Reconsideration/                  30 days     120 days                        120 days
 Carrier Hearing                               (90% within this time)          (92% within this time)

 ALJ                               90 days     none                            441 days
 MAC                               90 days     none                            661 days
                                                          nd
                                      All figures are from 2 Quarter FY 2001


FLOW OF PAPER RECORDS

         Implementation of Section 521 could be significantly hampered by the paper record-
         keeping and file transport system used in the current Medicare appeals system. Currently,
         case files must first travel from the carrier to the hearing officer (if off-site). If the appeal
         continues, case files are then sent to the Social Security Administration’s Office of
         Hearings and Appeals (OHA) in Falls Church, Virginia. CMS data shows that it takes
         about 28 days to prepare and transfer a case from the hearing officer to OHA. OHA staff
         then assign docket status to appeals files and prepare the files for hearing to

                                                         11
Medicare Administrative Appeals:                                                            OEI-04-01-00290
The Potential Impact of BIPA
         make them more usable and better organized for the ALJs. This often means removing
         what OHA staff consider to be extraneous information. After this process, OHA
         distributes the files to the ALJ Hearing Offices.

         Nearly all parties we interviewed agreed that serious problems arise from this
         reorganization of files. Carriers complain that when files are returned following
         adjudication, many are incomplete and missing important documentation. Many ALJs also
         question the value of OHA preparation of the appeals files. They maintain that support
         documents become lost or separated from related cases which can cause considerable
         delay and confusion as they adjudicate their cases. When the files reach the ALJ offices,
         they often need to be restructured to make them more usable to the ALJs. Judges at the
         MAC also complain that the restructuring of files can be counterproductive and causes
         some problems, including lost records and delays, at their level.

         Another problem associated with this paper transfer system is the lack of consistent case
         identifiers. As a case proceeds through the appeals system, a request for payment is
         assigned a claim number, carrier hearing appeal number, OHA docket number, MAC
         docket number, and a civil action number if the case goes to court. It is extremely difficult
         to track an appeal through the system without a consistent locator number. For example,
         it is not possible for a carrier to call OHA to easily determine the status of a case because
         the case would now have an OHA docket number. In effect, for other parties in the
         system, and CMS, these files are ‘lost’, until they are adjudicated and forwarded from the
         ALJ office.

INCREASE IN NUMBER OF APPEALS

         With the implementation of BIPA, the volume of appeals could increase dramatically for a
         number of reasons. First, Section 521 presents a new appeals system. The attractiveness
         of a speedier system, with drastically reduced time frames, may encourage some to appeal
         denied claims when they would not have done so under the prior system.

         Although specific estimates are not available, experts we spoke with agree that the
         increases could be significant.

         Second, appeals could increase due to the increased control given to appellants. Under
         the new system, appellants will be able to dictate to a great degree how quickly their
         appeal moves through the system. If a case is not decided by an ALJ or the MAC within
         90 days, it progresses to the next level at the appellant’s discretion. This allows appellants
         to use the system to their advantage by accelerating to, or remaining at, the level of the
         system they consider to be most advantageous.

         Finally, appeals may increase due to the greatly lowered minimum amount in controversy.
         At a time when many experts counseled raising the amount in controversy for providers,
         while maintaining or lowering it for beneficiaries, Section 521 lowers that amount for all
         appellants. Data on the number of cases dismissed for not meeting the amount in
         controversy is unavailable. The following table illustrates the BIPA change in the amount
         in controversy required for the various levels of appeal.




                                                  12

Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
                          Amount in Controversy Required to Conduct Appeal

                        Redetermination*/       Reconsideration*/     ALJ            DAB          Court
                        Review                  Carrier Hearing
 BIPA                   none                    none                  $100           $100         $1000
 Current                none                    $100                  $500           $500**       $1000
*Redetermination and reconsiderations are the new, BIPA designated names for these levels of appeal.
**The DAB has discretion to hear cases with a smaller amount in controversy, but rarely does so.


INCREASE IN COST OF APPEALS SYSTEM

         While the Congressional Budget Office was not required to project the financial impact of
         BIPA, we estimate that these changes could dramatically increase costs associated with
         the appeals process. First, with the shortened time frames at the early levels of appeal, it is
         likely that more cases will escalate to the higher levels of appeal. The figure below
         illustrates the average current cost of adjudicating a Part B appeal at each level.

                                     Part B Appeals Cost Per Case



                            $1,000                                     $908
                             $900
                             $800
                             $700
                             $600
                             $500
                             $400
                             $300
                             $200
                             $100         $12             $28
                                $0
                                      Carrier          Carrier     ALJ
                                      Revie w          Hearing    Hearing
                                             A ll figures from FY 2000.
                                         Comparable MAC data unavailable.


         From this figure, it can be seen that the costs increase as each case proceeds to a higher
         level. Therefore, as more cases are elevated to progressively higher and more expensive
         levels of the process, the costs for each case will increase.

         As described in the prior section, BIPA could also result in an increase in the overall
         number of appeals filed. An increase in the total volume of cases could, therefore,
         compound the impact of the increase in costs per case and increase overall costs
         dramatically. Current total costs at each level appear in the table below.

                                                        13
Medicare Administrative Appeals:                                                             OEI-04-01-00290
The Potential Impact of BIPA
                             Total FY 2000 Costs for Medicare Part B Appeals

                     Carrier Reviews         Carrier Hearings         ALJ Hearings
                       $64,013,200            $27,048,688              $66,610,967

         Finally, the greatest initial cost will result from the creation of the Qualified Independent
         Contractors. Per BIPA, there must be at least twelve QICs, independent of the
         contractors involved with the initial determination of claims. These QICs must be
         adequately staffed to render decisions on all appeals within 30 days, in addition to many
         other responsibilities required by BIPA. CMS sources estimate that the cost of these new
         contractors will be significant.

PROGRAM INTEGRITY ISSUES

         BIPA is likely to affect the ability to develop and prosecute suspected fraud cases. To a
         large degree, program integrity and speedy appeals are in conflict. Fraud cases take time
         to develop. Providers, who believe they are under suspicion of fraud, can use this to their
         advantage in the appeals system. For example, when providers learn they have claims
         under focused medical review, or are under carrier fraud investigation, they could attempt
         to bring their case to an ALJ as quickly as possible. There are some reports of ALJs
         approving claims under suspected fraud investigation. ALJs may not be aware that cases
         they are hearing are also under fraud investigations.

         While the ALJ does not adjudicate fraud, once the ALJ rules in favor of the appellant, the
         fraud accusations are effectively ended. Carriers have few options with their fraud cases
         at that point. In fact, this issue reaches even higher levels. Some U.S. Attorneys are
         frustrated and concerned when their pending fraud investigations are severely limited or
         ended after an ALJ rules in favor of an appellant.

         CMS recently established a number of new program integrity initiatives that may be
         impossible to continue under Section 521 without some clarification and special
         dispensation. For example, in one Durable Medical Equipment Regional Carrier, appeals
         involving suspected fraudulent claims are referred to a specialized contractor,
         TriCenturion, for preliminary screening, analysis and work-up. This referral is allowed 25
         days. That time frame cannot be accommodated with BIPA’s 30-day time limits for
         contractor appeals.

         These issues raise significant questions about how to deal with suspected fraud cases
         under BIPA’s provisions for reduced times to adjudicate appeals. BIPA itself offers no
         guidance on these questions.

QUALITY OF RECORD

         At each level of the appeals process, there is serious concern given to the quality of case
         records and the effect of BIPA’s reduced time frames on this quality. It is very important
         that each level, particularly the ALJ and MAC levels, have a clear, definitive file to
         examine. At present, there are often complaints about the quality of the record.
         Questions arise about the rationale of the carrier hearing officer decisions because of the

                                                   14
Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
         file’s lack of a clear written decision, supporting documentation, and references to relevant
         contractor manuals or Local Medical Review Policy. There are many reports of ALJs
         being unable to ascertain the hearing officer’s justification for the continued denial of a
         claim.

         Under Section 521, there may not be adequate time to determine the reasoning for the
         decisions made at the prior level of appeal. By the time the rationale is explained or
         documentation located, the case could possibly be escalated to the next level.

         It is possible that cases may reach the District Courts without decisions and case
         development from prior administrative levels of appeal. This could happen when cases are
         escalated through the ALJ and/or MAC levels because of failures to meet time limits for
         adjudication. Consequently, the Courts could receive appeals without any case
         development or administrative appeal decisions.

TRANSITION TO NEW APPEALS SYSTEM

         BIPA gives little guidance on transitioning to the new appeals system. It simply indicates
         that Section 521 applies to “initial determinations,” i.e., claims made on or after the
         effective date of October 1, 2002. For some period, estimated from 18-30 months,
         Medicare will therefore be operating two appeals systems at the carrier level. This
         transition could take a considerable period of time due to the cases pending in the system
         when BIPA takes effect. It is expected that the ALJ and MAC levels will require many
         years to reduce existing backlogs in their pipelines at the time of BIPA implementation.

         Unless CMS procedures for assigning priority to these older cases are clear, claims
         pending at the carrier when Section 521 takes effect may immediately lose priority. The
         carriers may take the position that the “timed” claims are priority and the older claims
         which have no time frames are to be worked in as time permits. This practice of assigning
         lower priority to claims not under BIPA’s strict time frames may occur at other levels of
         appeal as well.

EFFECT ON BENEFICIARIES

         Although the current appeals process is dominated by provider appellants, beneficiaries
         continue to bring appeals on their own behalf. The Medicare program is intended to serve
         the beneficiary, and the appeals process was originally designed for beneficiaries. BIPA
         changes could negatively affect beneficiaries in several ways.

         First, BIPA reduces the amount of time appellants have to appeal Part B claim denials.
         Currently, the time limit is 180 days for requesting an initial review of a Part B claim.
         BIPA reduces that time to 120 days, a reduction of 60 days (33 percent). Beneficiaries
         will therefore lose time to obtain medical records and information needed for their appeal.
         Unlike most providers, beneficiaries may have little control or leverage over how long it
         will take their doctor or medical supplier to send records necessary to complete their case
         file.

         Second, beneficiaries could lose their right to a hearing at the contractor level. Presently,
         beneficiaries may request an in-person hearing, a telephone hearing, or an on-the-record
         decision. The new QIC reconsideration could possibly not include a hearing as BIPA

                                                  15
Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
         does not require a hearing at this level. It is unlikely that the new QICs will be able to
         conduct hearings given their 30-day time limit. Should this happen, the beneficiary’s
         opportunity to be heard will have been significantly curtailed. Providers and suppliers are
         much better able to present their case, complete with necessary documentation and expert
         witnesses, for an on-the-record-decision.

         Finally, it is possible that some providers, aware of the shorter time frames under BIPA,
         may hold their appeals until after BIPA is implemented. Beneficiaries, who are generally
         less knowledgeable about Medicare rules, would more likely continue to appeal at the
         same rate without regard for future system changes under BIPA. Therefore, a
         disproportionate number of appeals pending during the transition phase could be those of
         beneficiaries.

CARRIER APPEALS

         Section 521 makes several important changes at the carrier level. First, the time to

         conduct a carrier review, to be called a redetermination, will be reduced by 33 percent,

         from 45 to 30 days. All carriers who responded to our survey indicated that they will need

         additional resources to meet the new time limits for redeterminations. The second major

         change is the elimination of the carrier fair hearing level of appeal. The carrier hearing will

         be replaced with a reconsideration by the Qualified Independent Contractor. 


         Section 521 will also create transition challenges for the carriers as they phase out fair

         hearings and fair hearings officers. Because it will be some time before fair hearings

         officers are completely removed from the process, it could be difficult and costly to retain

         hearings officers since they know their positions are being phased out. 


         Finally, it requires the carriers to interface with a new entity, the QIC. The carriers

         expressed concerns and doubts about interfacing with the new QICs. Carriers raise

         important questions including:


         <         Will QICs have access to carrier databases?

         <         Will carriers remain responsible for preparing cases for ALJ hearings?

         <         And, will carriers remain responsible for the effectuation (ordering the payment) of

                   overturned cases?

THE QUALIFIED INDEPENDENT CONTRACTOR

         BIPA creates a new appeals entity. These new contractors, called Qualified Independent
         Contractors (QIC), will replace the fair hearings level in Part B. According to Section
         521, CMS must maintain contracts with at least 12 QICs. However, Section 521 provides
         little guidance on the composition, staffing, location, and organization of the QICs.

         The QICs will operate under greatly reduced time frames compared to the hearing
         officers. Hearings officers currently have 120 days to conduct their appeals, while QICs
         will only have 30 days. A QIC is not required to hold a hearing and given their tight time
         frames, it is likely that their process will only consist of an on-the-record appeal.
         Decision making of the new QICs will be further complicated by the case files they will
         receive from the carriers. Presently, the files of the previous level of appeal, the carrier
         review, have very brief decisions with little or no accompanying rationale. The new and

                                                    16
Medicare Administrative Appeals:                                                      OEI-04-01-00290
The Potential Impact of BIPA
         inexperienced QICs will be using this brief record as the basis for their on-the-record
         decisions. Tight time frames of the QICs could therefore reduce the quality of QIC
         decisions compared to fair hearing decisions. And, subsequent appeal levels could receive
         less clear records of the reason for denial by the QICs.

         At present, Medicare has only one independent contractor who conducts appeals separate
         from organizations which are payers of claims, the Center for Health Dispute Resolution
         (CHDR). The CHDR conducts managed care appeals, and is independent of Managed
         Care Organizations (MCO). Some have suggested using the CHDR as a model for the
         new QICs. Several ALJs we spoke with remarked that CHDR appeal files are generally
         better prepared than fee-for-service appeal files. And, CHDR meets its time frames 95
         percent of the time.

         For a number of reasons, however, the CHDR is not very similar to the proposed QICs.

         <	        CHDR conducts far fewer appeals than will the new QICs. In FY 2000, CHDR
                   conducted about 24,000 appeals, while hearing officers heard 965,638 cases. On
                   average, this will mean about 80,000 appeals per QIC.

         <	        CHDR cases are much simpler than fee-for-service cases. CHDR cases cannot be
                   combined as can fee-for-service cases. CHDR cases often address single issues
                   such as denied services, not complex issues such as overpayments and partial
                   payment of services.

         <	        CHDR is bound by MCO policies while QICs are not bound by contractor Local
                   Medical Review Policy.

         <	        CHDR is a single entity. With only one CHDR, there are no communication and
                   inconsistency problems inherent with multiple contractors.

         <	        Only about one-third of CHDR cases are retrospective appeals. The bulk are pre-
                   service expedited cases, revolving around whether a beneficiary is entitled to a
                   service under their managed care plan.

         <	        Only a limited number of CHDR cases can be appealed to an ALJ. Only
                   beneficiaries and non-participating providers can appeal their CHDR denials to an
                   ALJ.

         For these reasons, CHDR is not a viable model for the QICs. CMS will have to develop
         new policies to enable the QICs to meet the specific requirements of BIPA.


SSA ALJ HEARINGS

         BIPA may have a significant impact on the ALJ level of appeals. The newly mandated
         BIPA time frames and reduced amount in controversy required to appeal could exacerbate
         existing problems at this level.

         As indicated earlier, the ALJ process is lengthy and backlogged. Currently, it takes 441
         days, on average, to adjudicate a Medicare Part B case. Further, the volume of Part B

                                                   17
Medicare Administrative Appeals:                                                    OEI-04-01-00290
The Potential Impact of BIPA
         ALJ appeals continues to increase. In FY 1996, there were 34,917 requests for ALJ
         hearings. In FY 2000 there were 77,872. At the end of 2nd quarter FY 2001, there were
         31,223 ALJ appeals pending adjudication. However, while the number of appeals at the
         ALJ level is increasing, the number of ALJs is decreasing. In 1996, there were 1,087
         active ALJs. Currently, there are 915; a decline of almost 16 percent. The number of
         ALJs cannot increase due to a freeze on the hiring of new, and the replacement of
         departing, ALJs.

         ALJs also continue to have SSA disability cases as their top priority. Although the Part B
         Medicare cadre continues to exist, even those ALJs still have disability responsibilities.
         These competing interests were exacerbated by the recent SSA implementation of
         Hearings Process Improvement (HPI) which mandates that all support staff, which
         includes paralegals and staff attorneys, rotate every 3-9 months into another part of their
         office. This precludes support staff from gaining much expertise in Medicare. HPI has,
         by some reports, reduced the total production of SSA ALJs by 25 percent.

         Additionally, BIPA raises serious questions of equity because of the dual workload of the
         ALJs. There is no current absolute time limit for adjudication of SSA disability cases, and
         the average time of an ALJ to decide an SSA appeal is 291 days. Cadre judges and OHA
         administrators question the fairness of different standards for the two workloads.

         The lowered amount in controversy under BIPA could have the effect of increasing
         appeals at the ALJ level. Currently, an appellant must have a claim with at least $500 in
         controversy to request an ALJ hearing. BIPA lowers the amount in controversy to $100
         at the ALJ level, the same as is required for an appeal to a QIC. Given that more than 90
         percent of appellants are providers, who can combine individual claims to meet the
         amount in controversy, it seems likely that almost any denial upheld by a QIC could be
         appealed to an ALJ. In 2nd quarter FY 2001, almost 9,000 appeals were upheld, in full, at
         the carrier hearing level. Under BIPA, most of these appeals could reach ALJs.

         In addition to the increased workload, ALJs may have less information with which to
         make decisions. For instance, if the QIC does not meet its time frame and the appeal is
         escalated up to an ALJ without a QIC decision, the ALJ would need to rely solely on
         information from the review/redetermination level of appeal which currently provides little
         written rationale or documentation. This lack of information will be especially challenging
         due to lack of Medicare expertise of most ALJs and the greatly reduced time frames of
         BIPA.

         Further, because the ALJ cases are non-adversarial, judges already have the responsibility
         of finding expert witnesses to testify to medical and statistical sampling issues. This is a
         difficult process because there is no existing roster of experts to consult and ALJs are
         limited to $2,500 per case. Any requests for fees over $2,500 must go through a central
         budget process and bids must be requested, which can take months. If all cases are held
         to the 90-day adjudication limit, it is unlikely that expert witnesses could be identified and
         contracted in time.

         Cadre ALJs, along with OHA administrators, expressed concern that these rigid time
         frames will also adversely affect due process. First, the reduced quality of decisions at all
         levels and the inability to provide expert witnesses could harm the ability to get a well-
         reasoned decision. Second, Part B cadre judges and OHA officials expressed concern

                                                   18
Medicare Administrative Appeals:                                                      OEI-04-01-00290
The Potential Impact of BIPA
         that ALJs, working under severe time restrictions, will have incentives to produce
         favorable decisions in more cases. Such decisions are less time-consuming to produce and
         can be done on-the-record, eliminating the need for a hearing. Finally, if CMS reimburses
         SSA for completed cases only, judges will likely be under pressure to issue decisions
         within 90 days to assure that the case is not escalated to the MAC, and payment
         opportunities lost. OHA officials and individual cadre ALJs agreed that this
         reimbursement situation would create such incentives.

MEDICARE APPEALS COUNCIL

         Section 521 of BIPA could have a very serious impact at the highest level of appeal, the
         Medicare Appeals Council (MAC).

         The MAC currently only has a small staff which is already facing a large and growing
         number of requests. The MAC has two senior judges, and a support staff of sixteen.
         Although other judges on the DAB review some Medicare cases, the two judges and
         support staff identified above have primary responsibility for the Medicare caseload.
         The MAC hears and renders full decisions only on a small percentage of cases.

         Section 521 fundamentally changes the nature of a MAC review. In its present role, the
         MAC is similar to an appeals court, in that it reviews the ALJ decisions for legal
         sufficiency and whether the ALJs have exceeded their legal authority. This is very
         different from the “de novo” process of the ALJ and earlier hearings. Section 521 seems
         to make the MAC review “de novo.” Such reviews would allow the MAC to review even
         fewer cases.

         Section 521 also makes reference to a “hearing procedure” at the MAC level. It is unclear
         how this will be interpreted. At present, oral arguments on appeal at the MAC are very
         rare. A MAC review is, with few exceptions, limited to examination of the documentary
         record and the recording of the ALJ hearing. If hearings are required at the MAC level,
         that would further impede the ability of MAC to hear cases and meet deadlines. Some
         question how two judges could conduct a large number of hearings. And, hearings in only
         one location, Washington, D.C., may raise questions of equity and access.

         BIPA may increase the number of cases the MAC receives in several ways. First, as
         discussed, BIPA could increase cases entering the appeals system. Second, cases that do
         not receive timely resolution by ALJs would escalate to the MAC. Finally, the disposition
         of cases by the U.S. District Court is still unknown. While it is possible that the Courts
         will hear these cases, it is also possible that the courts will remand them because they have
         no administrative record. The Courts may consider that such cases have not exhausted
         their administrative appeal. The result would be cases being elevated up the line to the
         MAC and cases remanded back to the MAC from the Courts.

         A serious question of adequate resources has existed at the MAC level for years. With
         present resources, the MAC cannot accommodate BIPA changes.




                                                  19

Medicare Administrative Appeals:                                                     OEI-04-01-00290
The Potential Impact of BIPA
U. S. DISTRICT COURTS

         We approached the U.S. District Court System about the impact of BIPA to ascertain any
         preparations made by the Courts for their potentially increased Medicare Appeal caseload,
         and the reaction of their judges to this possibility. We were concerned about whether
         Court Judges were likely to remand cases reaching them without an administrative record.
         Because of BIPA’s acceleration provisions, cases may reach the Courts lacking decisions
         from the ALJ and/or the MAC levels of appeals. At present, there are no provisions for a
         major influx of cases into their jurisdiction in any upcoming budget.

         The Courts do have a number of questions regarding BIPA changes. Central among these
         are critical questions regarding those cases escalated through the appeals system without
         decisions from all prior levels of administrative review. The Courts question whether
         those appeals would meet the requirements for judicial review under the Administrative
         Procedures Act. BIPA allows cases to escalate to the Courts if not decided at the MAC in
         time, but seems to imply that the Courts will hear all of these cases.

         Many in the administrative appeals process have serious concerns about what the Courts
         will do with these cases. Some believe that the Court will simply remand these cases back
         to the MAC for lack of full administrative review. However, this will render the 90-day
         MAC time ineffectual, as those cases will be sent back to a level that could not process
         them timely in the first place. Others believe that the Court will conclude that because the
         Medicare program failed to meet its time limits, appellants should win their appeals.
         Consequently, many appeals could be decided in favor of the appellant by the Courts.




                                                  20

Medicare Administrative Appeals:                                                    OEI-04-01-00290
The Potential Impact of BIPA
                               RECOMMENDATIONS

         Our review of the current appeals process reveals that the new appeals system required by
         BIPA will be coming in on top of a system that is already stressed. While changes can be
         made within the current system to mitigate some of the unintended adverse impacts of the
         BIPA requirements, only a complete restructuring of the appeals system would both
         eliminate the serious shortcomings of the current system and meet the goals of the BIPA
         legislation. A recently completed OIG study of ALJ appeals (OEI-04-97-00160) shed
         light on the broader issues of the Medicare appeals process and included recommendations
         to address them. We re-examined those recommendations in light of the findings of this
         study on the BIPA provisions, and we developed a single set of recommendations to
         address the system as a whole.

         We believe these recommendations, if implemented, could significantly reduce the time it
         takes to process appeals, ensure access to and equitable procedures for beneficiaries and
         health care provider appellants, provide fair and consistent rulings, protect the financial
         integrity of the Medicare program, ensure competence and accountability of reviewing
         agencies, and improve efficiency at all levels. Following are our recommendations.

         <         Delay implementation of Section 521 of BIPA.

                   Implementation of Section 521 should occur only after solving systemic problems
                   addressed in this report and our prior report on the ALJ process. The Department
                   should seek legislation to revise the effective date of the statute.

         <         Establish an administrative appeals process that is dedicated to Medicare.

                   One major facet of the current appeals process–the reviews conducted by
                   ALJ’s–lies in the Social Security Administration (SSA), beyond the control of the
                   Medicare program. Our earlier report on this subject describes serious
                   shortcomings of this system, including inconsistencies in the criteria used by ALJ’s
                   and lower level reviewers, lack of communication among reviewers at various
                   levels, and lack of departmental representation at hearings.

                   The decisions of adjudicators must stem from a fair and equitable process and be
                   independent of lower level reviews. However, the process itself should be within
                   or controlled by the Department of Health and Human Services. For example, the
                   Department should have control over the acquisition and training of personnel
                   resources, and the techniques and processes used for Medicare appeals.
                   Adjudication of appeals should be done by individuals who are trained and have
                   expertise and current experience with Medicare policy and operations. Thus, we
                   recommend severing the link between the Medicare appeals system and the Social
                   Security ALJs, relying instead on an administrative appeals system overseen
                   exclusively by the Department.

         There are a variety of ways to structure an administrative appeals system outside the
         Social Security ALJ system, with options on factors such as the number of levels of
         appeal, formats, timeliness standards, and qualifications of reviewers. Administrative

                                                    21
Medicare Administrative Appeals:                                                      OEI-04-01-00290
The Potential Impact of BIPA
         reviews could be conducted by Departmental employees (such as ALJs) or by independent
         external reviewers under contract to the Department.

         Obviously, such restructuring would have to meet certain minimum requirements. First
         and foremost, the appeals process must provide independent, neutral, and competent
         adjudicators. It must be trusted by all parties who use it and by the public at large who
         funds it. Sufficient time must be allowed and effective procedures must be established to
         ensure that beneficiaries and health care providers have easy access to it and have the
         opportunity to have their concerns, arguments, and evidence fairly considered.

         Other, subsidiary, issues need to be resolved either in legislation or system
         implementation. These include: size, number, locations, and structure of the independent
         components of the appeals process; and the nature and extent of CMS oversight of the
         system.

         <         Ensure adequate resources for each level of the appeals process.

                   This is critical for all levels of appeal. Implementation of process changes should
                   not occur until the costs of these changes can be carefully estimated and provided
                   for. Resources can be made available by eliminating funding for ALJs now
                   handling Medicare cases within SSA. Funds now transferred to SSA can be
                   reallocated to the appeals process that would be established entirely under HHS
                   control.

         <	
         <         Modify the time frames mandated by BIPA--Provide adequate time for fair
                   and effective processing, but ensure timely and efficient resolution of appeals.

                   Time frames which can be met with a reasonable good faith effort by all parties to
                   the appeals process should be established. However, flexibility should be allowed
                   for exceptional cases, such as those potentially involving fraud. Revised time
                   frames should be phased in over a reasonable time period. While time frames
                   longer than those required by BIPA are needed, there is also a need to complete
                   Medicare appeals more timely than is currently done. All parties to Medicare
                   appeals desire prompt adjudication of appeals, but it is particularly important to
                   providers and beneficiaries.

                   Consideration can be given to eliminating one or more of the levels of
                   administrative review included in both the current and BIPA proposed systems.
                   This could reduce the overall length of time for completing all appeals while
                   conserving resources which could then be used to ensure timely resolution and fair
                   and effective processing of appeals in the remaining levels.

         <         Provide opportunity for CMS representation at higher levels of review.

                   The current appeals process was designed based on that of the Social Security
                   program, with its emphasis on the needs of beneficiaries who often would not have
                   the benefit of representation by attorneys. However, the Medicare appeals system
                   has become one that largely receives appeals from providers whose financial stakes
                   may be high and who may have strong legal representation. Furthermore, even
                   some beneficiary appeals may have important consequences for the Medicare
                   program. However, the Department is not provided the
                                                     22
Medicare Administrative Appeals:                                                      OEI-04-01-00290
The Potential Impact of BIPA
         opportunity for representation in the appeals process. Such representation is needed to
         assure fair and impartial hearings and to ensure that the interests of the Medicare program
         itself are effectively presented and considered.

         <         Develop thorough, parallel training for reviewers at all levels of appeal.

                   Both Medicare contractors and reviewers at all levels need a thorough knowledge
                   of the program. The appeals process suffers from lack of common knowledge,
                   understanding and information. Consistency is needed across all levels of review,
                   and within each level as well.

         <	
         <         Develop and require all reviewers of Medicare claims to apply the same
                   standards.

                   Currently, the ALJs are bound only by law and regulations, while contractors are
                   also bound by Local Medical Review Policy and contractor manuals. This
                   contributes to the high reversal rate by ALJs. Therefore, greater standardization
                   would be useful. However, we recognize that ALJ decision may continue to be
                   based on evidence that was not presented to - or not fully considered by - the
                   contractor.

         <         Develop regulations or detailed specifications for conducting appeals.

                   Currently, ALJs use SSA disability appeal regulations to adjudicate Medicare
                   appeals. ALJs lack the necessary guidance to conduct Medicare appeals. If ALJs
                   are used in a reconstructed appeals system, regulations governing the ALJ appeal
                   level would be necessary. If contractors were used for higher levels of review, the
                   contracts should specify in detail the procedures or standards to be used in order
                   to ensure fairness, competency, consistency, and timeliness.

         <
         <	        Create formal communication and information networks that span the entire
                   appeals system.

                   The present appeals system features a number of reviewers and judges, each of
                   whom operates in relative isolation from the others. These discrete levels of
                   appeal inhibit communication and prevent the system from becoming fully
                   integrated.

         <         Modernize appeals processing mechanisms.

                   Restructuring the appeals system within the department is also needed to facilitate
                   modernizing the entire process. The manual file systems need to be enhanced with
                   electronic features which would facilitate storage, retrieval, transport, and use. A
                   modernization effort could lead to reductions in both case preparation time and
                   layers of appeal review and adjudication.




                                                    23

Medicare Administrative Appeals:                                                      OEI-04-01-00290
The Potential Impact of BIPA
Agency Comments

         The Office of the Secretary presented a consolidated response representing the views of
         various components within the Department of Health and Human Services. Generally, the
         Department agreed with our conclusions and recommendations. Specifically, the
         Department agreed that a complete restructuring is needed to resolve serious
         shortcomings of the appeals system before Section 521 of the Benefits Improvement and
         Protection Act becomes effective.

         Further, the Department’s response to our report noted that many of our
         recommendations were also applicable to Section 522 of the Benefits Improvement and
         Protection Act, although we did not include an analysis of that Section in our study.
         Accordingly, the Department suggested that Section 522 should also be delayed until after
         a comprehensive resolution of systemic problems in the Medicare administrative appeals
         system.

         The Department highlighted three principles that should serve to guide efforts in reforming
         the system. They are:

                   --        build on the appeals model included in the Benefits Improvement and
                             Protection Act;

                   --        achieve a more timely, efficient, and less costly administrative review
                             process; and

                   --        achieve more consistent case decisions.

         The full text of Department of Health and Human Services comments on our report begins
         on the following page.




                                                      24

Medicare Administrative Appeals:                                                         OEI-04-01-00290
The Potential Impact of BIPA
                                                                                                  APPENDIX



       Department of Health and Human Services Comments



                - DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of the Secretary


                                                                                            Washington, D.C. 20201




            MEMORANDUM FOR THE INSPECTOR GENERAL

            FROM:


            SUBJECT:	       Office of the Inspector General (OIG) Draft Report: Medicare Administrative
                            Appeals: The Potential Impact of BIPA (OEI-04-00290)


            Thank you for the opportunity to comment on the above-referenced draft report regarding the
            impact of amendments made by the Benefits Improvement and Protection Act of 2000 (BIPA) to
            the Medicare appeals system. I am providing the Department's comments in accord with your
            policy that this be done in cases where multiple agency comments were received by your office.

            The report generally does an excellent job of analyzing the problems in the existing appeals
            system. We agree with your conclusion that "...only a complete restructuring of the appeals
            system would both eliminate the serious shortcomings of the current system ...... We also agree
            that systemic problems must be addressed in the appeals system as a whole before section 521 of
            BIPA takes effect. Moreover, since many of the OIG report's recommendations are also relevant
            to section 522 of BIPA, we are confident you will agree that appeals system changes should be
            addressed in a comprehensive way, recognizing the impact of both sections, prior to
            implementation.

            We are committed to improving the Medicare appeals function. HHS believes that any reformed
            appeals system should adhere to three principles:

                    Build on the model enacted in BIPA;

                    Result in a more timely and efficient and less costly administrative review process; and 

                    Result in more consistent Medicare decisions.


            HHS particularly appreciates the OIG's discussion of options available to the Department if the
            decision is made to separate the Medicare appeals system from the Social Security
            Administrative Law Judge system. This document will serve as valuable guidance as the
            Department explores how to improve the Medicare appeals system.




                                                           25
Medicare Administrative Appeals:                                                                       OEI-04-01-00290
The Potential Impact of BIPA
          Page 2 - Memorandum for the Inspector General


          We believe your recommendations are generally sound, and have the following specific
          comments.

          OIG Recommendation

          Delay the implementation of Section 521.

          OS Comment

          A change in the effective dates of both sections 521 and 522 is needed to permit time to address
          systemic problems and to avoid the potential negative impacts of BIPA identified in the Draft
          Report. Merely delaying "implementation' will not avoid potential problems from certain
          provisions of section 521, in particular the "de novo" review provision and the escalation clause.
          A delay period should be used to consider whether to modify such provisions and, if so, how.

          OIG Recommendation

          Establish an administrative appeals process that is dedicated to Medicare.

          OS Comment

          We agree generally with the principles expressed under this recommendation and agree with your
          conclusion that "... there are a variety of ways to structure an administrative appeals system
          outside the Social Security ALJ system, with options regarding the number of levels of appeal,
          formats, timeliness standards, qualifications of reviewers, etc. Administrative reviews could be
          conducted by Departmental employees (such as ALJ'S) or by independent external reviewers
          under contract to the Department." We are committed to pursuing options and alternatives in this
          area and will seek your assistance as we proceed.

          OIG Recommendation

          Ensure adequate resources for each level of the appeals process.

          OS Comment

          We agree.

          OIG Recommendation

          Modify the time frames mandated by BIPA. Provide adequate time for fair and effective
          processing, but ensure timely resolution of appeals.




                                                           26

Medicare Administrative Appeals:                                                                    OEI-04-01-00290
The Potential Impact of BIPA
                   Page 3 - Memorandum for the Inspector General


                   OS Comment

                   We agree. As the Draft Report indicates, however, the system must be flexible enough not only
                   to address fraud concerns, but also to permit efficient case processing.

                    OIG Recommendation

                   Provide opportunity for CMS representation at higher levels of review.

                    OS Comment

                   We agree. Currently, CMS may file a protest seeking review of an ALJ decision with which
                   CMS disagrees. CMS representation during AILJ hearings could sharpen the issues and improve
                   decisions.

                   OIG Recommendation

                   Develop thorough, parallel training for reviewers at all levels, of
                   appeal.

                   OS Comment
                   We agree.

                   OIG Recommendation

                   Develop and require all reviewers of Medicare claims to apply the same standards.

                   OS Comment

                   We are in general agreement with this recommendation. We note that an AI.J decision may be
                   different from a contractor's determination for reasons that have nothing to do with the standards
                   applied. The ALJ decision may be based on evidence that was not presented to - or not fully
                   considered by - the contractor.

                   OIG Recommendation

                   Develop regulations or detailed specifications for conducting appeals.

                   OS Comment

                   We agree. Having procedures in regulations protects providers and beneficiaries and ensures
                   that they have an opportunity for input into changes that could affect their rights. The regulations
                   need to be developed.




                                                            27

Medicare Administrative Appeals:                                                                      OEI-04-01-00290
The Potential Impact of BIPA
Page 4 - Memorandum for the Inspector General


 OIG Recommendation

 Create formal communication and information networks that span the entire appeals system.

 OS Comment

We agree that communications concerning procedural and administrative matters are important to
an effective appeals system. Such communications are appropriate, but should be distinguished
from communications that might compromise the independence of the adjudicators or the fairness
of the process.

 OIG Recommendation

 Modernize appeals processing mechanisms.

 OS Comment

 We agree. Electronic systems for file storage and transport and for uniform case tracking are
 critical to reducing case age.




                                                          28

Medicare Administrative Appeals:                                                                 OEI-04-01-00290
The Potential Impact of BIPA
